HHS/OIG, Audit - "Pennsylvania Protection & Advocacy, Inc. Procurement
Practices and Potential Conflicts of Interest During Fiscal Years 2001 Through
2003," (A-03-04-00515)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Pennsylvania Protection &
Advocacy, Inc. Procurement Practices and Potential Conflicts of Interest During
Fiscal Years 2001 Through 2003," (A-03-04-00515)
July 10, 2007
Complete
Text of Report is available in PDF format (635 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review of Pennsylvania Protection & Advocacy, Inc.
(PP&A) were to assess its procurement practices, assess potential conflicts of
interest, and evaluate PP&A's monitoring of its contractors.
PP&A had contracting practices that did not reflect the use of open competition
as required by Federal law; had two situations that involved conflicts of
interest in violation of Federal law; and did not comply with Federal
regulations in monitoring its legal services contractors because it did not verify that
contractor costs billed were allowable, allocable, and reasonable.
We recommended that PP&A (1) use open competition in procuring legal
services contracts or stop sole source contracting and establish in-house legal
services expertise; (2) require its executive director to terminate her
conflicting employment relationship; (3) decline acceptance of future
contributions from any of its contractors; and (4) ensure that it complies
with Federal regulations in monitoring contractor billings.  PP&A concurred
with our recommendations, but disagreed with the repayment part of the third
recommendation, saying that its recent merger with the contractor would nullify
repayment.  Accordingly, we modified our third recommendation.